Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) GDB-3141

STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

86884

AFFIDAVIT OF SERVICE

Haward Daniels being duly swarn. depases and says that depanent is nat party ta the actian. and is aver 18 years af age.
That an the 15th day af June 2021 depanent served 3 capies af the within
PETITION FDR AWRIT OF CERTIORARI
upan the attarneys at the addresses belaw. and by the
methad:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Brian P. Scibetta
McCalla Raymer Leibert Pierce. LLC
420 Lexingtan Avenue, Suite 840
New Yark. New Yark
(347) 286-7408
Brian.scibettalfilmccalla.cam

Alan E. Schaenfeld
WilmerHale. LLP
7 Warld Trade Center. 250 Greenwich Street
New Yark. New Yark
(212) 230-8800
Alan.schaenfeldlfilwilmerhale.cam

Attorneys for Respondent
I. Haward Daniels. declare under penalty af perjury under the laws af the United States af America that the
is true and
carrect. executed on June 15. 2021. pursuant to Supreme Caurt Rule 28.5(c). All parties required ta be served. have been served.

,d¢wJc--J (i]
Howard Daniels

Sworn to me this

June 15. 2021
Jasmine Williams
Notary Public. State af New Yark
No.
D.ualified in D.ueens Caunty
issian Expires September IS. 2023

Case Name: JP Margan Chase Bank v. Caliguri

